NLRB's Performance Plan for Fiscal Year 2000
NLRB's Performance Plan for Fiscal Year 2000
UNITED STATES GOVERNMENT
NATIONAL LABOR RELATIONS BOARD
Office of Inspector General
MEMORANDUM
DATE: April 26, 1999
To: John C. Truesdale, Chairman
Frederick L. Feinstein, General Counsel
From: Aileen Armstrong,
Inspector General
Subject: NLRB's Performance Plan for Fiscal Year 2000
The Results Act states that the plan shall:
establish
performance goals to define the level of performance to be achieved
by a program activity;
express such goals
in an objective, quantifiable, and measurable form;
briefly describe the
operational processes, skills and technology, and the human,
capital, information, or other resources required to meet the
performance goals;
establish
performance indicators to be used in measuring or assessing the
relevant outputs, service levels, and outcomes of each program
activity;
provide a basis for
comparing actual program results with established performance goals;
and
describe the means
to be used to verify and validate measured values.
The OIG evaluated the
Agency's Fiscal Year 2000 Annual Performance Plan against the just stated
criteria and we have several comments regarding the plan. The performance
plan needs improvement in three areas. First, the Agency should streamline
the report by focussing goals on program areas. Second, performance
measures that are not objective, measurable, and verifiable should be
reconsidered. Third, the Agency should provide additional information on
how it intends to verify and validate performance data. Our comments may
be useful to Agency officials in formulating future annual performance
plans for the NLRB.
The Agency may need to
update its strategic plan ahead of schedule if significant changes are
made. Currently the Agency is required to update its strategic plan by
Fiscal Year 2000. If the Agency decides to update its strategic plan in
Fiscal Year 1999 further updating would not be required until Fiscal Year
2002.
Comment 1
Our first comment addresses both the
Fiscal Year 2000 Annual Performance Plan and the Strategic Plan for Fiscal
Years 1997 - 2002, on which it was based. The NLRB has identified 4 goals
which are listed below.
Goal No.1 - Resolve questions concerning representation
impartially, promptly, and conclusively.
Goal No. 2 - Investigate, prosecute, and remedy unlawful
acts, called unfair labor practices, by either employers or their unions.
Goal No. 3 - Develop and maintain a well trained, highly
effective, productive, customer service oriented workforce.
Goal No. 4 - Fully integrate information resource management
into the working environment to increase the Agency's ability to provide
information to the public and to meet Agency core mission functions and
goals.
In the Agency's response to our comments
on their Fiscal Year 1999 Annual Performance Plan the Agency said that
they may reconsider Goal No. 3. We agree that the Agency should reconsider
performance goal number 3, which addresses staff development issues. The
Agency should also reconsider performance goal number 4, which deals with
information technology initiatives. These changes would streamline Agency
reports, conserving staff resources and providing a more focussed report
for judging the Agency's performance. In our opinion, personnel
development and information technology initiatives would be better handled
as strategies to achieve goals number 1 and 2.
Our opinion is consistent with the intent
of the GPRA and applicable guidance published by the Office of Management
and Budget (OMB) and the General Accounting Office(GAO).
OMB Circular A-11, page 294 states, " An Agency has discretion to submit
strategic plans covering only its major functions or operations; support
type activities and operations can be omitted. Strategic plans prepared
primarily for agency internal use (such as those prepared at a program or
component-unique level) may cover a greater range of functions and
operations."
Agencies' Strategic Plans Under GPRA: Key
Questions to Facilitate Congressional
Review (GAO/GGD-10.1.16), page 12 states, " General goals and
objectives - or strategic goals - explain what results are expected from
the agency's major functions and when to expect those results. Thus such
goals are an outgrowth of the mission and are very often
results-oriented."
The NLRB Mission Statement
clearly identifies the Agency's statutory responsibilities and identifies
its two primary functions:"(1) to prevent and remedy statutorily
defined unfair labor practices by employers and unions; and (2) to conduct
secret-ballot elections among employees to determine whether the employees
wish to be represented by a union." Agency goals should be linked to
major functions identified in its Mission Statement.
Comment 2
The annual plan does not
identify verification and validation techniques to be used by
organizations other than regional offices.
Comment 3
Goals Number 1 and 2
include performance measures that: 1) are not expressed in objective,
quantifiable, and measurable form; and 2) do not provide a basis for
comparing actual program results with established performance goals.
Goal No. 1 includes the
following performance measures which should be reconsidered.
Revise
Representation Casehandling Manual and make it accessible to the
public.
Evaluate quality of
representation casework.
Operations
management to visit Regional offices to assess effectiveness of
casehandling systems; discuss performance measurement, best
practices, and implementation of General Counsel policies.
Operations
Management to perform on-site quality review of casehandling files
in Regional Offices.
Goal No. 2 includes the
following performance measures which should be reconsidered.
Evaluate the quality
of Unfair Labor Practice casehandling.
Evaluate Information
Officer Program.
Revise hearing
Officers' Guide and make it available to the public.
Evaluate Information
Officer Program.
Improve quality of
Unfair Labor Practice Case processing.
Revise Compliance
Manual.
Issue and
disseminate further "best practices" for Unfair Labor
Practices casehandling.
The annual plan does not
identify target levels of performance nor the methodology by which these
measures would be verified and validated. The measures identified are
strategies that may increase the quality or timeliness of regional
casehandling, but are not performance measures which can be used to
ascertain the effectiveness of Agency operations. They are input measures
which identify resources used, not results obtained.